U.S. Department of Agriculture
 Office of Inspector General
       Midwest Region
         Audit Report



     Food and Nutrition Service
   National School Lunch Program
Food Service Management Companies




               Report No.
               27601-0027-CH
               APRIL 2002
                     UNITED STATES DEPARTMENT OF AGRICULTURE

                                OFFICE OF INSPECTOR GENERAL

                                    Washington, D.C. 20250




DATE:        April 30, 2002

REPLY TO
ATTN OF:     27601-0027-Ch

SUBJECT:     NSLP – Food Service Management Companies

TO:          Roberto Salazar
             Administrator
             Food and Nutrition Service

ATTN:        Lael Lubing
             Director, Grants Management Division


This report presents the results of our audit of the Food and Nutrition Service’s National
School Lunch Program as operated by Food Service Management Companies in six
FNS regions nationwide. The conditions presented in this report have also been
provided to the regional offices in regional-level reports or summaries of findings. The
conditions reported here represent those findings of nationwide scope which require
corrective actions at the Headquarters level.

Based on your office’s response to the official draft report, dated March 28, 2002, we
have accepted your management decisions for Recommendations Nos. 3, 4, 7, 8, 9,
and 10. Summaries of the management decisions are attached. Please follow your
agency’s internal procedures in forwarding documentation for final action to the Office of
the Chief Financial Officer.

We have not reached management decisions on Recommendations Nos.1, 2, 5, or 6.
Management decisions on these recommendations can be reached once you have
provided us with the additional information outlined in the report section, OIG Position.

If you have any questions, please have a member of your staff contact Stephen W.
Fowkes, Director Food and Marketing Division, at 202-720-7805.



/s/
RICHARD D. LONG
Assistant Inspector General
  for Audit
                       EXECUTIVE SUMMARY
                     FOOD AND NUTRITION SERVICE
                   NATIONAL SCHOOL LUNCH PROGRAM
                 FOOD SERVICE MANAGEMENT COMPANIES

                          REPORT NO. 27601-0027-CH


                                      This report presents the results of six regional
     RESULTS IN BRIEF                 audits of the National School Lunch Program
                                      (NSLP) as operated by Food Service
                                      Management Companies nationwide. Our
         objective was to determine whether sufficient controls existed to ensure
         that management companies complied with program requirements in
         crediting SFA’s for the value of USDA-donated commodities and purchase
         discounts and rebates. We found that 5 of the 8 management companies
         we reviewed improperly retained benefits from 53 SFA’s valued at about
         $6 million. This occurred, in part, because FNS’ requirements and
         instructions were not always clear. In addition, some management
         companies manipulated the terms of their contracts with the SFAs in order
         to reduce their own costs and retain benefits that should have accrued to
         the SFAs. Based on the results of these audits, OIG-Investigations has
         opened cases on three of these management companies.

           Under the NSLP, FNS provides cash reimbursements to States to provide
           nutritious meals to school-aged children. The States administer the
           program through the SFA’s, which in turn contract with food service
           management companies to provide the food service. Food service
           contracts may be either fixed-rate or cost-reimbursable. In a fixed-rate
           contract, management companies charge a flat rate for the meals served
           and must credit the SFA for the full value of any USDA-donated
           commodities used.      In a cost-reimbursable contract, management
           companies, as an agent of the SFA’s, make purchases for and submit
           invoices to the SFA’s for payment. In these cases, the companies must
           pass along any purchase discounts and rebates they receive.

           We reviewed 65 SFA’s served by the 8 independent management
           companies in 7 States nationwide. The management companies operated
           both fixed-rate and cost-reimbursable type contracts.

              Four of the five companies that operated under fixed-rate contracts at
              46 SFA’s we reviewed withheld credit for $5.8 million in USDA-donated
              commodities that were used in the NSLP.             The management
              companies profited by using the USDA-donated commodities and

USDA/OIG-A/27601-0027-Ch                                                       Page i
             failing to properly credit those SFA’s with the commodities’ value. We
             found that FNS did not require State agencies and their SFA’s to
             include a specific procedure in contracts for crediting the value of the
             commodities to the SFA’s, even though Federal regulations required
             that commodities solely benefit and be used in an SFA’s non-profit
             food service operation. As a result, the USDA-donated commodities
             were being used to assist for-profit companies, thus decreasing the
             funds available to the SFA’s for use in operating their food service
             programs. These 4 management companies operated Federal food
             programs at nearly 30 percent of the 1,648 SFA’s nationwide that
             contracted with management companies in school year 1999.

             Two management companies that maintained cost-reimbursable
             contracts nationwide profited at the expense of 7 of the 19 SFA’s we
             reviewed by retaining over $280,000 in discounts and rebates they
             received on purchases made for their food service operations. To
             accomplish this, the management companies amended, eliminated, or
             ignored terms included in the requests for proposal issued by the
             SFA’s. Contrary to FNS regulations, the management companies
             were able to include contract terms that favored them, because FNS
             did not mandate specific contract terms and provisions. This resulted in
             management company contracts lacking sufficient controls to
             determine exactly how the company would pass through purchase
             discounts and rebates in the determination of net costs. Further, the
             lack of FNS mandated contract provisions inhibited some States from
             properly addressing these requirements during reviews and
             development of SFA prototype contracts and bid documents. These
             2 management companies contracted with over 18 percent of the
             1,648 SFA’s that had management company contracts nationwide.

          Finally, we found that SFA’s turned over most aspects of their programs,
          including meal accountability, to the management companies. There was
          little or no SFA oversight. In all, 16 of the 24 SFA’s we visited did not
          have adequate controls in place to ensure accurate meal claims or to
          prevent management companies from being reimbursed for nonprogram
          costs. Neither the FNS Regional offices nor the States were aware that
          the SFA’s were not providing the required oversight of management
          company operations. The meal accountability systems used by the SFA’s
          resulted in inaccurate meal claims and provided the SFA’s with
          reimbursement for 83,904 meals that were unsupported. In addition,
          SFA’s improperly used $1.2 million in NSLP funds to reimburse three
          management companies for nonprogram (unallowable) costs.

                                     Each OIG region through the appropriate FNS
  KEY RECOMMENDATIONS                regional office made all recommendations for
                                     the recovery of NSLP funds. However, we are

USDA/OIG-A/27601-0027-Ch                                                      Page ii
           recommending that FNS establish specific parameters for appropriate
           contract terms for States and SFA’s to follow to ensure that the SFA’s, not
           the management companies, benefit from the value of USDA-donated
           commodities, purchase discounts, and rebates.         FNS also needs to
           amend regulations and guidance to reference those parameters for
           appropriate contract terms. In addition, we are recommending that FNS
           amend regulations to require each State agency to annually review and
           approve each contract before contract execution, and that FNS emphasize
           in its management evaluations a review of State and SFA oversight of
           management company operations.

           Finally, we are recommending that States: (1) ensure that the SFA’s
           understand that contracting with a management company does not
           alleviate their oversight responsibility and their need to maintain reliable
           meal accountability systems; and (2) require all new contracts to stipulate
           that, as the agents of the SFA’s, management companies must comply
           with competitive procurement requirements for all goods and services
           charged, and that such charges be net of all purchase discounts and
           rebates are to be properly credited to SFA food service accounts and
           require rebid of all current contracts that do not include this requirement.

                                     In its response to the official draft, dated
    AGENCY RESPONSE                  April 10, 2002, FNS generally agreed with the
                                     findings and recommendations except for
                                     Recommendation No. 6, in which agency
        officials expressed the opinion that the recommended action was not the
        most effective means of addressing the cited conditions. However, FNS
        also stated that some of the recommended actions would require changes
        to the existing regulations and thus could not be implemented at this time.
        We have incorporated applicable portions of the FNS response, along with
        our position, within the Findings and Recommendations section of the
        report. The FNS response is included in its entirety as exhibit B of the
        audit report.

                                      Based on FNS’ response, we have reached
        OIG POSITION                  management decisions on Recommendations
                                      Nos. 3, 4, 7, 8, 9, and 10. Management
                                      decisions on the remaining recommendations
          can be reached once FNS has provided us with the additional information
          outlined in the report section, OIG POSITION. For Recommendation
          No. 6, and for those recommendations which FNS officials stated could
          only be addressed in the long-term through regulatory changes, we
          requested additional responses citing the proposed corrective actions to
          be taken along with their associated timeframes.




USDA/OIG-A/27601-0027-Ch                                                       Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i
   RESULTS IN BRIEF..................................................................................................... i
   KEY RECOMMENDATIONS ....................................................................................... ii
   AGENCY RESPONSE ............................................................................................... iii
   OIG POSITION ........................................................................................................... iii
TABLE OF CONTENTS................................................................................................. iv
INTRODUCTION............................................................................................................. 1
   BACKGROUND .......................................................................................................... 1
   OBJECTIVES .............................................................................................................. 2
   SCOPE ........................................................................................................................ 2
   METHODOLOGY ........................................................................................................ 3
FINDINGS AND RECOMMENDATIONS ........................................................................ 5
   CHAPTER 1 ................................................................................................................ 5
   MANAGEMENT COMPANIES PROFIT FROM USDA AND OTHER BENEFITS
   INTENDED TO SUPPORT AN SFA’s NONPROFIT FOOD SERVICE....................... 5
   FINDING NO. 1............................................................................................................ 6
   RECOMMENDATION NO. 1 ....................................................................................... 9
   RECOMMENDATION NO. 2 ..................................................................................... 10
   RECOMMENDATION NO. 3 ..................................................................................... 10
   FINDING NO. 2.......................................................................................................... 11
   RECOMMENDATION NO. 4 ..................................................................................... 14
   RECOMMENDATION NO. 5 ..................................................................................... 14
   RECOMMENDATION NO. 6 ..................................................................................... 15
   RECOMMENDATION NO. 7 ..................................................................................... 15
   CHAPTER 2 .............................................................................................................. 17
   BETTER OVERSIGHT OF MANAGEMENT COMPANIES NEEDED TO ENSURE
   PROGRAM INTEGRITY............................................................................................ 17
   FINDING NO. 3.......................................................................................................... 17
   RECOMMENDATION NO. 8 ..................................................................................... 20

USDA/OIG-A/27601-0027-Ch                                                                                               Page iv
 RECOMMENDATION NO. 9 ..................................................................................... 20
 RECOMMENDATION NO. 10 ................................................................................... 21
 EXHIBIT A – NATIONWIDE SUMMARY OF SITES SELECTED ............................. 22
 EXHIBIT B – FNS’ RESPONSE TO THE DRAFT REPORT..................................... 23




USDA/OIG-A/27601-0027-Ch                                                                             Page v
                           INTRODUCTION

                                      On June 4, 1946, Congress passed the
       BACKGROUND                     National School Lunch Act (42 U.S.C. 1751)
                                      which authorized and established the National
                                      School Lunch Program (NSLP). The purpose
         of the NSLP is to safeguard the health and well-being of the Nation’s
         children and encourage the domestic consumption of agricultural
         commodities. The U.S. Department of Agriculture’s (USDA) Food and
         Nutrition Service (FNS), through seven FNS Regional Offices (FNSRO), is
         responsible for the administration of the NSLP. The NSLP provides
         Federal assistance in cash and USDA-donated commodities to States in
         order to benefit schools’ nonprofit food services.

          FNS enters into written agreements with a State agency, usually a State’s
          Educational Agency, which administers the program Statewide. The State
          agency is required to perform program oversight through monitoring and
          assisting school food authorities (SFA) in their operation of the NSLP at
          the local level. The SFA’s are required to provide meals to children that
          meet certain requirements, and accurately count and claim the number of
          meals served to children. FNS provides cash reimbursements to State
          agencies based on the monthly claims submitted by SFA’s that detail the
          number of meals claimed as being served. In addition, FNS provides
          special cash assistance, through higher reimbursement rates, for reduced-
          price and free meals served to children determined as eligible to receive
          such benefits.

          FNS permits SFA’s to contract with food service management companies
          to operate their nonprofit food service operations. Although management
          companies can provide most of the routine administration of the food
          service operations, the SFA retains the responsibility of ensuring that food
          operations comply with program regulations. An SFA solicits bids from
          management companies through issuing either a request for proposal
          (RFP) or invitation for bid that details the contract requirements. The
          contract type may be either a fixed-rate-per-meal or cost-reimbursable
          type. In a fixed-rate-per-meal contract, management companies charge a
          flat rate times the number of meals claimed as being served, regardless of
          the costs to prepare those meals. However, in a cost-reimbursable
          contract, management companies, as the SFA’s agent, make purchases
          on behalf of the SFA’s and submit the invoices to the SFA’s for payment.




USDA/OIG-A/27601-0027-Ch                                                      Page 1
          Both types of contracts should require that certain types of benefits accrue
          back to the SFA.        In a fixed-rate-per-meal contract, management
          companies are required to credit the SFA for the full value of any USDA-
          donated commodities that the management companies received and used
          in the NSLP. Under a cost-reimbursable contract, any purchase discounts
          and rebates the management companies may receive, as the agent of the
          SFA, that would reduce the cost of goods purchased must be passed
          along to the SFA’s, as these represent a reduction in the actual costs
          involved in preparing the meals.

          During fiscal year 2000, FNS disbursed approximately $5.6 billion in
          Federal reimbursements for 4.5 billion meals claimed as being served to
          students, and over $800 million in USDA-donated commodities. Of the
          19,329 SFA’s nationwide, 1,648 of them had contracted with a
          management company during fiscal year 1999 to operate the NSLP/SBP
          in their schools. In addition, based on the data collected from the 7 FNS
          regional offices, they reported that there were at least 19 management
          companies operating an SFA’s non-profit food service in 41 states.

                                     The objectives of this audit were to determine
        OBJECTIVES                   whether sufficient controls exist to ensure that
                                     (1) food service management companies
                                     credit SFA’s for the full value of USDA-
         donated commodities and/or volume purchase discounts and rebate as
         applicable; and (2) that management companies and SFA’s administered
         the NSLP in accordance with applicable laws, regulations, and FNS
         guidelines. As part of these objectives, we reviewed the FNS National
         Office’s policies and procedures, and evaluated the FNSRO’s oversight of
         State agencies management companies, and SFA’s to ensure their
         compliance. Specifically we evaluated the controls over: (1) requests for
         proposal (RFP) and contracts under which management companies agree
         to manage the SFA’s’ food service; (2) management companies’
         procedures to account for USDA-donated commodities and issue
         commodity credits to SFA’s when fixed-rate-per-meal contracts are used;
         (3) procedures to ensure that volume purchase discounts, rebates, or
         other credits are properly accounted for by management companies and
         credited to the SFA’s under cost-reimbursable type contracts; and
         (4) procedures to ensure the accuracy of meal counts, claims, and
         management companies’ billings.

                                      This nationwide audit of food service
            SCOPE                     management companies’ administration of the
                                      NSLP covers fiscal years 1998 through
                                      2000 (covering the school years that operated
          from July 1, 1997, through June 30, 2000), but we expanded our review to
          earlier periods as indicated in the report. We performed our audit at the

USDA/OIG-A/27601-0027-Ch                                                      Page 2
                   FNS National Office in Alexandria, Virginia, and six FNS Regional Offices.
                   We judgmentally selected six States based on the highest number of
                   management company contracts, or the highest percentage of SFA’s
                   using management companies within a State or nationwide. In addition to
                   the six States we selected based on the above criteria, we reviewed one
                   other State as part of an OIG Audit and Investigative joint effort.

                   Within the seven States, we judgmentally selected eight management
                   companies. Seven of these companies were selected based on the
                   highest activity. One was selected based on information disclosed during
                   our audit.

                   We visited 24 SFA’s and performed a limited review of the management
                   company contracts and other documents of an additional 41 SFA’s.
                   During fiscal years 1998 through 2000, 47 of the 651 SFA’s we reviewed
                   maintained fixed-rate-per-meal contracts and 19 SFA’s had signed cost-
                   reimbursable contracts with management companies. The number of
                   fixed-rate-per-meal and cost-reimbursable contracts we reviewed does not
                   necessarily represent the proportion of fixed-rate to cost-reimbursable
                   nationwide.

                   The audit was conducted in accordance with Government Auditing
                   Standards established by the Comptroller General of the United States.

                                           To accomplish our audit objectives, we
            METHODOLOGY                    reviewed FNS regulations, procedures,
                                           guidelines,    and   memorandums     issued
                                           concerning USDA-donated commodities and
              procurement of goods and services relevant to management companies.
              In addition, we interviewed officials with the Child Nutrition and Food
              Distribution divisions of FNS, and determined the scope of activity of
              management companies nationwide. Also, we reviewed the FNS regional
              offices’ monitoring efforts of, and policy, procedures, and memorandums
              issued to, the State agencies relating to SFA’s contracting with
              management companies. Through interviews of FNS Headquarters and
              regional office officials, we determined the scope of activity of
              management companies within each region and selected our States to be
              visited.

                   At the seven State agencies, we reviewed their policies, procedures, and
                   memorandums issued to an SFA when contracting with management
                   companies, and the SA’s monitoring efforts to ensure an SFA met
                   program requirements. Through interviews with SA officials and our
                   review of records, we selected one management company in each state

1
 One SFA in New Jersey had a fixed-rate-per-meal contract for school years 1998 and 1999 and then signed a cost-reimbursable
contract with the same management company for school year 2000.

USDA/OIG-A/27601-0027-Ch                                                                                         Page 3
          and the 24 SFA’s that contracted with that management company. In
          addition, we selected and performed a limited review of another 41 SFA’s
          based on the problems disclosed during our fieldwork. Furthermore, we
          obtained and reviewed documents relating to SFA contracting with that
          management company, and the value of USDA-donated commodities
          received.

          We reviewed the SFA’s procedures for issuing RFP’s and subsequent
          contracts with management companies to operate the nonprofit food
          service. We reviewed records and interviewed SFA officials to evaluate
          their monitoring efforts at the individual schools and procedures for
          ensuring the accuracy of meal claims. In addition, we reviewed records
          and interviewed SFA officials to ensure that; (1) for fixed-price-per-meal
          contracts, they received proper credit for USDA-donated commodities and
          they used the commodities to prepare a school lunch, and (2) for cost-
          reimbursable contracts, that they received applicable portions of income,
          rebates, and discounts, relating to any SFA’s allowable cost.

          When needed, we interviewed officials at each management company that
          was responsible for contracting and operating an SFA’s school food
          service, and reviewed the management companies’ procedures used in
          documenting their accounting of all applicable discounts, rebates, and
          allowances reviewed for purchases made on behalf of an SFA. In
          addition, we interviewed the management company’s vendors to
          determine whether they paid discounts and rebates. Furthermore, we
          reviewed the management company’s procedures to submit meal claims
          and document their policies in contracting with vendors. However, for the
          management company in Illinois, we did not attempt to review their
          records, other than copies made available by SFA officials, or interview
          management company personnel because of the ongoing investigation.
          The OIG Investigative staff in St. Louis, Missouri, performed interviews
          and reviewed original management company documents.




USDA/OIG-A/27601-0027-Ch                                                    Page 4
                    FINDINGS AND RECOMMENDATIONS



                               MANAGEMENT COMPANIES PROFIT FROM USDA
CHAPTER 1                     AND OTHER BENEFITS INTENDED TO SUPPORT AN
                                    SFA’s NONPROFIT FOOD SERVICE

                   Five2 of the eight management companies we reviewed improperly
                   received benefits, either in the form of purchase discounts or USDA-
                   donated commodities, which were intended to benefit the SFA’s’ nonprofit
                   food services. The lack of clear instructions from FNS, in conjunction with
                   inadequate oversight by the State agencies and SFA’s, allowed the
                   management companies to reduce their costs and retain the SFA’s
                   benefits. FNS had not required any specific contract language or
                   procedures for State agencies and SFA’s to follow to ensure that an SFA
                   received the full benefit from USDA-donated commodities and purchase
                   discounts and rebates. In addition, we found that some management
                   companies, when developing their responses to SFAs’ Requests for
                   Proposal (RFP), took advantage of the fact that the SFAs were not
                   provided with explicit requirements for contract provisions. This allowed
                   them to insert contract provisions that were contrary to Federal
                   regulations, and which essentially allowed management companies to
                   retain benefits that should have accrued to the SFAs’ food service
                   programs. Even where State agencies had prototype contracts that
                   required the value of purchase discounts and USDA-donated commodities
                   to be credited to the SFA’s, there were no specific procedures governing
                   how and when those credits were to be made. As a result, the purchase
                   discounts and USDA-donated commodities were used to enrich the
                   management companies instead of benefiting the SFA’s as required by
                   Federal regulations.




2
 One management company for an SFA in New Jersey retained commodity benefits under a fixed-rate-per-meal contract during
school years 1998 and 1999, and retained discounts and rebates under a cost-reimbursable contract during school year 2000.

USDA/OIG-A/27601-0027-Ch                                                                                            Page 5
                                       Four of the five management companies that
       FINDING NO. 1                   operated the food service programs under a
                                       fixed-rate-per-meal contract at 47 SFA’s we
  MANAGEMENT COMPANIES                 reviewed profited by withholding the value of
 FAILED TO PROPERLY CREDIT             USDA-donated commodities used in the
SFA’s FOR THE VALUE OF USDA-           NSLP.        The management companies
DONATED COMMODITIES USED IN benefited by using the USDA-donated
          THE NSLP                     commodities and failing to credit to 46 of those
                                       SFA’s the value of donated commodities they
          received and used on the SFA’s behalf. FNS did not require State
          agencies and their SFA’s to make the commodity value pass-through a
          requirement in the RFPs. As a result, the USDA-donated commodities
          made available through USDA’s Food Distribution Program were being
          used to assist for-profit companies, thus decreasing the funds available to
          the SFA’s for use in operating and improving their food service programs.
          The improper benefits to these four management companies totaled
          almost $5.8 million over 5 years.

                     Federal regulations3 state that an SFA must ensure that all Federally
                     donated food received by the SFA and made available to management
                     companies accrue only to the benefit of and be used in the SFA’s
                     nonprofit food service. FNS Guidance for School Food Authorities, dated
                     June 1995, requires that all contracts contain the above provision and
                     reaffirm the SFA’s responsibility. Moreover, FNS recommended that in
                     order to establish and document the commodity value pass-through, fixed-
                     price contracts should specify that the credits or reductions would be
                     indicated on the invoices to the SFA. However, FNS did not require this
                     specification.

                     Our review in 5 States of 47 SFA’s that maintained fixed-rate-per-meal
                     contracts, found that 46 SFA’s did not receive proper credit for USDA-
                     donated commodities. Four of the five management companies at the
                     46 SFA’s did not properly pass through to the SFA’s the full value of
                     commodities used, even though Federal regulations and several of the
                     SFA’s RFP’s contained that requirement. In addition, an SFA allowed the
                     management company to write a new RFP, which omitted the requirement
                     to credit the market value of USDA-donated commodities to the SFA. The
                     same contract requirement was also omitted by some State agencies
                     since, instead of developing a State prototype RFP, they used FNS’
                     checklist of required contract terms that did not require the management
                     company to credit the SFA for the value of USDA-donated commodities.

                     Although Federal regulations require that USDA-donated commodities
                     benefit the SFA and be used solely for a school’s food service, FNS’
                     instructions to SFA’s do not make the commodity value pass-through a
3
    7 CFR 210.16 (a)(6)

USDA/OIG-A/27601-0027-Ch                                                              Page 6
          requirement in the RFP’s. Although FNS recommended that management
          companies pass through the value of USDA-donated commodities, they
          did not require an SFA’s RFP to contain language that would have
          ensured the commodity value pass-through. FNS Headquarters officials
          agreed that, in a fixed-price-per-meal contract, the value of USDA-donated
          commodities should be credited to the SFA. The lack of specific
          procedures for crediting USDA-donated commodities has led to
          contradictory methods by State agencies, SFA’s, and even FNS regional
          offices to ensure that the value benefit an SFA’s nonprofit food service
          operation.

          An official at the FNS’ Mountain Plains Region (MPR) stated that FNS
          regulations do not mention how to credit commodities, and when an
          FSMC uses the food, the SFA gets the benefit. In addition, FNS-MPR
          officials stated that the regulations did not specifically require the
          management companies to provide a "credit" to SFA’s for the value of
          commodities, and that FNS guidance only suggests that a credit be
          shown on the invoices. Therefore, the FNS-MPR did not enforce the
          invoice crediting of USDA-donated commodities. We found that one of
          the State agencies in this region, Missouri, would not perform any
          “suggested” procedures, but followed only what FNS specifically required.
          Therefore, the State agency’s required contract language for SFA’s did not
          include crediting for the value of USDA-donated commodities on the
          management company’s invoices.

          In some cases, management companies circumvented the value pass-
          through provisions in the RFP. Although the Illinois State agency had
          made the value pass-through part of the State agency’s RFP prototype
          since 1991, the management company in that State was able to retain a
          large portion of that value. This management company, as well as two
          others across the country, calculated a precredit amount for USDA-
          donated commodities that usually matched the current year entitlement
          rate established by FNS (between 13½ cents and 14½ cents per
          reimbursable lunch). However, for some of the SFA’s we reviewed, the
          value of commodities received usually exceeded this amount, totaling as
          much as 20 cents per meal. This meant that under the terms of the
          contract, the SFA’s were paying the management companies up to
          6½ cents per meal for commodities that cost the companies nothing. In
          addition, the entitlement rate does not take into account the value of
          bonus commodities being offered (which can be almost 5 cents per meal)
          and made available to SFA’s after the beginning of a school year. Since
          the management company would have signed a contract with an SFA
          prior to the start of a school year, the company could not have factored
          bonus commodities into the bid meal rate. During the period of our
          review, the management companies that practiced this kind of precredit



USDA/OIG-A/27601-0027-Ch                                                    Page 7
          arrangement received over $160,000 that should have been used to
          reduce the cost of the NSLP to the SFA’s.

          We found that officials at all levels, FNS regional, State, and local, were
          unsure how USDA-donated commodities were to be handled when an
          SFA contracted with a management company. Although FNS’ guidance
          did discuss how an SFA could ensure it received full value for USDA-
          donated commodities, the guidance did not make those procedures a
          requirement. In addition, we found that FNS’ 1995 guidance was not
          widely distributed to all SFA’s for their reference in contracting with
          management companies, so SFA’s were not aware of how USDA-donated
          commodities were to be handled and the suggested procedures to ensure
          they received the full benefit.

          The lack of specific required procedures from FNS provided inconsistent
          handling by State agencies and SFA’s and allowed management
          companies to devise unusual and untraceable methods in determining the
          value to pass through for USDA-donated commodities. To follow current
          requirements already implemented by some State agencies, and to better
          document the value of USDA-donated commodities passed through, the
          management company should be required to bid as if no commodities
          were available and then reduce their monthly invoice by the value of
          commodities used each month. In addition, FNS’ recommended language
          in their guidance (dated June 1995), that an SFA should receive a
          reduction on the monthly invoice for the value of USDA-donated
          commodities used, should also be a requirement. Crediting for the full
          value of USDA-donated commodities on a management company’s
          invoice would help ensure that SA’s and SFA’s realized the full benefit
          from USDA-donated commodities.

          In all, during the period of our review, the management companies
          received excessive profits of almost $5.8 million at the expense of the
          nonprofit food service programs at the 46 SFA’s we reviewed. These
          management companies operated NSLP/SBP programs at nearly
          30 percent of the 1,648 SFA’s nationwide that contracted out their food
          service operation.

          We believe that FNS should establish required procedures to ensure that
          the SFA, and not the management company, benefits from USDA-donated
          commodities. In addition, FNS should require the State agencies to
          include language in their prototype RFP’s stipulating the means by which
          commodity credits are to be made, and require that any contracts that
          contain material deviations from the State’s prototype RFP be rebid.
          Furthermore, FNS needs to ensure that all regional offices and State
          agencies are aware of this problem and that all SFA’s that contract with
          management companies on a fixed-price-per-meal basis are likewise

USDA/OIG-A/27601-0027-Ch                                                     Page 8
          aware that they are entitled to be reimbursed for the value of donated
          commodities.


  RECOMMENDATION NO. 1

          Develop a short-term and long-term action plan to ensure that the SFA,
          not the management companies, benefit from the value of USDA-donated
          commodities solely provided to support SFA nonprofit food service
          operations. Specifically, until FNS has developed and implemented long-
          term policy, procedures, and any necessary regulations, require that all
          fixed-rate-per-meal contracts; (1) be bid as if no USDA-donated
          commodities would be available, and (2) require that the full value of
          commodities used by management companies be reflected on the monthly
          invoices to the SFAs as a credit or reduction to the amount billed.

          Agency Response

          In its response, FNS agreed that actions need to be taken. However, FNS
          stated that based on consultation with their Office of General Counsel,
          they cannot issue a policy to State agencies that instructs them to notify
          SFA’s that FSMC contracts must be bid as if no commodities are
          available, and that a credit or reduction on the monthly invoice be made
          for the full value of USDA-donated commodities. FNS stated that these
          requirements could only be mandated through regulatory authority.

          FNS proposed an alternative course of action that included a
          memorandum to be sent to all State agencies within 90 days of report
          issuance. The memorandum will require that States notify all SFA’s of the
          problems identified in this audit, reiterate FNS policy and guidance, and
          recommend that State agencies and SFA’s review current FSMC
          contracts for compliance with current guidance.           In addition, the
          memorandum will also notify State agencies of FNS’ intention to study and
          identify needed regulatory changes. FNS will convene a team of national
          and regional staff and include representatives from State agencies, SFA’s,
          and FSMC’s to begin long-term analysis of program weaknesses
          addressed in this audit. The team would report its findings and long-term
          action plan no later than December 31, 2002.

          OIG Position

          We agree that, pending a determination of what regulatory changes are
          needed to correct the noted problems, it is appropriate that State agencies
          and SFA’s be notified of the results of this audit until action by FNS can be
          taken. The proposed notification does not place any specific responsibility
          on the State agencies for ensuring that corrective actions are taken. Most
USDA/OIG-A/27601-0027-Ch                                                       Page 9
          of the SFA officials we interviewed nationwide expressed little interest in
          monitoring the FSMCs’ compliance with program requirements as long as
          their costs for operating the food service programs did not exceed the
          amount of their reimbursements under the NSLP and SBP.

          We cannot reach a management decision until FNS officials provide a
          further response stating the corrective actions they plan to take to address
          the problems noted and the timeframes for their implementation.


  RECOMMENDATION NO. 2

          Ensure that all State agencies receive an updated copy of FNS’ Guidance
          for State Agencies and Guidance for School Food Authorities -
          Contracting with Food Service Management Companies, updated to
          contain all amendments recommended in this report, and direct the State
          agencies to distribute the revised guidance to its SFA’s.

          Agency Response

          Although FNS stated that it agreed with this recommendation, they stated
          that regulatory changes are needed to bring the guidance into full
          conformity with the recommendations in the audit report. Therefore, FNS
          plans to issue two revisions to its current guidance. The first, to be issued
          by March 2003, would provide new guidance to clarify and strengthen
          those areas within the current regulatory requirements. The second
          revision will occur after final regulations have been published addressing
          Program changes.

          OIG Position

          In order to reach management decision, FNS needs to provide us with
          clarification of which areas it intends to strengthen under the interim
          guidance. In addition, FNS needs to provide us with its proposed
          timeframes for making regulatory changes, the proposed nature of those
          changes, and timeframes for issuing final guidance to the State agencies.


  RECOMMENDATION NO. 3

          Notify all FNS regional offices to instruct their State agencies and their
          SFA’s that management companies must comply with the terms listed in
          the RFP and that only minor deviations can be approved by their State



USDA/OIG-A/27601-0027-Ch                                                      Page 10
                   agency. In addition, the guidance should specify that unapproved material
                   deviations will require rebid of a management company contract.

                   Agency Response

                   In its response, FNS stated that they would issue a policy memorandum
                   within 90 days of report issuance. The memorandum will notify all its
                   regional offices to instruct their State agencies and SFA’s that FSMC’s
                   must comply with the terms listed in the RFP and that only minor
                   deviations can be approved by a State agency.

                   OIG Position

                   We accept FNS’ management decision.

                                          Of the 19 SFA’s we reviewed nationwide with
          FINDING NO. 2                   cost-reimbursable contracts, 7 did not receive
                                          credit for the discounts and rebates their
     MANAGEMENT COMPANIES                 2 management companies received on food
    FAILED TO CREDIT SFA’S FOR            purchases.     The management companies
     THE VALUE OF PURCHASE                were    able  to  retain these benefits by
     DISCOUNTS AND REBATES                amending, eliminating, or ignoring terms
                                          included in the RFP’s issued by the SFA’s that
                                          would have required them to pass through any
             discounts or rebates for purchases made on the SFA’s behalf. Since FNS
             failed to mandate specific contractual terms relating to purchase discounts
             and rebates, the management companies were able to use contract terms
             that allowed them to retain the discounts and rebates. In addition, FNS
             did not issue clear monitoring procedures for their State agencies to follow
             in determining exactly how a management company should pass through
             the value of purchase discounts and rebates. Based on the management
             companies’ records, we determined that 7 SFA’s paid $284,108 to
             reimburse the management companies for costs that they did not incur.

                   Departmental regulations4 require that costs billed to an SFA under a cost-
                   reimbursable contract are to be the actual purchase price after deducting
                   all cash discounts, trade discounts, rebates, and allowances received.
                   The Office of Management and Budget guidelines issued under these
                   procurement standards5 state that for a cost to be allowable, it must be net
                   of all applicable credits. In addition, although not listed as a requirement,
                   FNS Guidance for School Food Authorities – Contracting with Food
                   Service Management Companies6 states that an SFA’s contract should


4
  7 CFR Part 3015, which was subsequently replaced with 7 CFR Parts 3016 and 3019.
5
 OMB Circular A-87; Attachment A; Item C.1.i; revised May 4, 1995, as further amended August 29, 1997.
6
 Contracting with Food Service Management Companies; Guidance for School Food Authorities; dated June 1995.

USDA/OIG-A/27601-0027-Ch                                                                                      Page 11
          incorporate controls over food purchasing and how trade discounts and
          rebates are to be passed through to the SFA.

          We found that management companies were able to use the lack of clear
          procedures to retain discounts and rebates that should have been credited
          to the SFAs. This occurred even though FNS requires that purchase
          discounts and rebates must be credited to the SFA’s account, since the
          management company is an agent of the SFA and must comply with the
          same procurement regulations that an SFA would be required to follow.
          Lack of clear and specific procedures has led to confusion not only within
          State agencies and SFA’s, but among Headquarters officials as well.

          We reviewed the RFP’s for 19 SFA’s in 6 states that maintained cost-
          reimbursable contracts during school years 1998-2000 (school year
          July 1 – June 30). All 19 SFA’s, while not using the exact wording of the
          State’s prototype RFP, used similar language regarding the handling of
          discounts and rebates on purchases related to the SFA’s food service
          operations. Each of the RFP’s required that the management company
          credit any discounts or rebates for purchases made on the SFA’s behalf.
          However, in 2 States, Michigan and New Jersey, we found that
          2 management companies benefited by retaining the value of purchase
          discounts and rebates.

                In the State of Michigan, we reviewed the signed contracts between
                9 SFA’s and the selected management companies and found that
                6 of the 9 SFA’s signed contracts that contained language that
                differed significantly from the RFP. The State agency did not
                identify this material charge and as a result, in each case, the
                contracts revised the terms of the RFP to state that the SFA was
                entitled to receive discounts and rebates only from local vendors.
                The contracts also stated that any discounts or rebates received
                from regional or national level vendors were to be retained by the
                management company. As a result of the revised contract terms,
                the 6 Michigan SFA’s failed to receive discounts and rebates
                totaling over $230,000 for school years 1998 – 2000. This could
                have been prevented had the State agency reviewed and approved
                the management company’s contract prior to implementation.

                Even though one SFA in Michigan and one SFA in New Jersey
                signed contracts with their management company that required that
                all discounts and rebates be credited to the SFA’s food service
                account, the SFA’s still did not receive all they were entitled to. For
                Michigan, the management company received and retained
                $24,790 of the $28,177 in discounts and rebates that should have
                been credited to the SFA. In New Jersey, one SFA was not



USDA/OIG-A/27601-0027-Ch                                                      Page 12
                credited at all for 1 year’s worth of discounts and rebates totaling
                over $47,000 in direct violation of the contract terms.

          One of the two management companies was allowed to amend an SFA’s
          contract because current FNS regulations and guidance do not contain
          specific requirements for contract terms.      The other management
          company was allowed to retain discounts and rebates because FNS has
          not provided guidance on the method by which an SFA should ensure that
          it receives the discounts and rebates to which it is entitled. These two
          management companies alone contracted with 300 (18 percent) of the
          1,648 SFA’s that had management company contracts nationwide.

          To assist State agencies and SFA’s in contracting with management
          companies, FNS issued formal guidance in June 1995. The guidance
          presents an overview of the Federal standards for State agencies and
          SFA’s and highlights certain provisions as Federal requirements that must
          appear in the contract documents. With regards to developing a cost-
          reimbursable contract, the guidance states that SFA’s should incorporate
          controls over food purchasing and explain how trade discounts and
          rebates are to be passed through to the SFA. However, this provision was
          not highlighted and was therefore not a contract requirement. In addition,
          FNS requires State agencies to review the management company
          contract but lacks regulatory authority to require States to approve a food
          service management company contract before implementation.

          Since FNS has not issued specific language requirements, management
          companies were able to remove contract terms that would have required
          them to credit SFA’s for purchase discounts and rebates. In addition,
          even if the contract required the management company to pass back cost
          reductions, FNS had not issued clear procedures on how the SFA was to
          ensure that it received all back discounts and rebates. The lack of specific
          contract language and clear procedures from FNS was compounded by
          an inadequate review process by the SFA’s and the State agency.
          Furthermore, if State agencies were required to approve a management
          company contract prior to implementation they would have additional
          assurance that the RFP terms were not amended in the signed contract.

          We found in our reviews of different food company contracts in seven
          States, that when FNS has required specific contract language (such as
          with the Energy Policy and Conservation Act, required by OMB A-102),
          specific language was included in the RFP’s and signed contracts. Based
          on our review nationwide, FNS needs to require specific contract language
          regarding purchase discounts and rebates. In addition, FNS needs to
          strengthen its policies and procedures to ensure that SFA’s receive the
          discounts and rebates to which they are entitled. Furthermore, FNS



USDA/OIG-A/27601-0027-Ch                                                     Page 13
          needs to ensure that all FNS regional offices, State agencies, and SFA’s
          are aware of these problems we found during our audit.


  RECOMMENDATION NO. 4

          Amend FNS Guidance for School Food Authorities to identify specific
          contract terms that a State agency and SFA must use to ensure that
          management companies, as agents of the SFA’s, comply with all
          applicable competitive procurement procedures that should result in net
          costs being charged to an SFA so that the SFA, and not the management
          company, receives the benefit of cost reductions in the form of discounts,
          rebates, and allowances.      (One of the required terms for cost-
          reimbursable contracts must state that all costs charged to the SFA must
          be net of all discounts, rebates, and allowances received by a
          management company, and that this cost reduction shall be shown on the
          monthly invoice or operating statement as a credit or reduction to the
          amount billed.)

          Agency Response

          FNS agreed with this recommendation and stated it will amend and issue,
          by March 2003, a revised guidance for SFA’s to help ensure that FSMC’s
          comply with all applicable competitive procurement procedures that should
          result in net costs being charged to an SFA.

          OIG Position

          We accept FNS’ management decision.


  RECOMMENDATION NO. 5

          Amend FNS regulations to require that State agencies include language in
          their RFP prototypes that require contract review by State officials prior to
          the SFA signing and implementing a management company contract.

          Agency Response

          In its response, FNS stated that its response depended on the outcome of
          suggestions from a group of State agency officials on the best way to
          ensure that procurement and contract activities comply with Federal
          requirements.



USDA/OIG-A/27601-0027-Ch                                                      Page 14
          OIG Position

          To reach management decision, FNS needs to provide us with a further
          response specifying its proposed corrective actions and the planned
          timeframes for their implementation.


  RECOMMENDATION NO. 6

          Amend FNS regulations and Guidance for State Agencies to require each
          State agency to annually review and approve each contract between any
          SFA and management company to ensure compliance with all the
          provisions and standards set forth in 7 CFR 210.16, before contract
          execution.

          Agency Response

          In its response, FNS stated that it disagreed that the action required by
          this recommendation would be the most effective means to ensure
          compliance with 7 CFR 210.16. FNS stated that it will solicit responses
          from a group of State agency officials on the best way to ensure that
          procurement and contract activities comply with Federal requirements.

          OIG Position

          To reach management decision, FNS needs to provide us with its
          alternate proposals and the timeframes when a final recommendation
          would be made.


  RECOMMENDATION NO. 7

          Notify all FNS regional offices to inform their State agencies that all new
          contracts must require that only costs net of all discounts or rebates are
          allowable costs to be charged to the SFA’s nonprofit food service account
          and any current contracts that do not contain this requirement must be
          rebid as soon as possible.

          Agency Response

          In its response, FNS agreed to issue guidance, within 90 days of report
          issuance, to all its regional offices to inform State agencies of this
          requirement.



USDA/OIG-A/27601-0027-Ch                                                    Page 15
          OIG Position

          We accept FNS’ management decision.




USDA/OIG-A/27601-0027-Ch                        Page 16
                                         BETTER OVERSIGHT OF MANAGEMENT
CHAPTER 2                              COMPANIES NEEDED TO ENSURE PROGRAM
                                                    INTEGRITY


                                             Of the 24 SFA’s we visited nationwide, 16 did
              FINDING NO. 3                  not exercise proper oversight of their
                                             contracted management companies.           Four
                                             SFA’s failed to adequately monitor their
                 schools’ meal accountability systems to ensure their accuracy; another
                 three failed to ensure that food service funds were used to benefit the
                 NSLP; and another nine failed to do both. Furthermore, even though
                 regulations require that an SFA determine student eligibility, we found that
                 one SFA delegated that responsibility to its management company. Both
                 the FNS regional offices and State agencies failed to ensure that the
                 SFA’s provided the required oversight of management company
                 operations. As a result, the meal accountability systems used by the
                 SFA’s did not ensure accurate meal claims for which they received
                 reimbursement for 83,904 meals that were unsupported. In addition, we
                 found SFA’s improperly used $1.2 million in NSLP funds to reimburse
                 three management companies for non-program or unallowable costs.

                    Federal regulations7 require FNS to perform comprehensive management
                    evaluations of each State’s administration of the NSLP, including the State
                    agency and SFA compliance with regulations. The State agencies are
                    also required8 to perform reviews of an SFA’s compliance with the NSLP
                    regulations, including the requirements listed in 7 CFR 210.16 dealing with
                    SFA oversight of management companies.

                    Federal regulations also require each SFA to establish internal controls to
                    ensure the accuracy of the monthly claim for reimbursement and annually
                    review those controls,9 and they require each SFA to correctly approve
                    each child’s eligibility for free and reduced price lunches and meal
                    supplements based on prescribed requirements.10

                    Of the 24 SFA’s we visited in 7 States nationwide, 16 failed to provide
                    proper oversight of their food service operation and contracted
                    management companies. Although both the FNS regional office and State
                    agency performed the required reviews, they failed to detect problems
                    with the SFA’s meal accountability system or the SFA’s oversight of
7
  7 CFR 210.30 (a).
8
  7 CFR 210.18 and in 210.19 (a)(6).
9
  7 CFR 210.8 (a)(1).
10
   7 CFR 210.7 (C)(1)(i).

USDA/OIG-A/27601-0027-Ch                                                              Page 17
                         management company operations. In four of the seven States we
                         reviewed, the undetected problems were serious.

                         -   In Michigan and Illinois, 8 of the 11 SFA’s we reviewed claimed over
                             80,000 more meals than their management companies billed, valued at
                             over $48,000. In addition, 7 of those 8 SFA’s used nearly $300,000 in
                             program funds to reimburse a management company for
                             350,000 school meals without documentation to support that those
                             meals were served.

                         -   Lack of controls over the meal claiming and billing process was also
                             found in the State of Missouri. Although the net effect of the number of
                             meals overclaimed was negligible, it was an indication of the lack of
                             oversight.

                         -   Similarly, one SFA in Newark, New Jersey, failed to reconcile the
                             number of meals claimed by the SFA to the number of meals billed by
                             the management company.            Although there was a minimal
                             overpayment made to the management company (for about $80 worth
                             of meals), our review of the 2 prior years found that the management
                             company billed the SFA for over $180,000 less than was allowed for by
                             the 1998 and 1999 contracts. Again, the net effect to the food service
                             program was minimal, but without proper SFA oversight, this
                             underpayment could have easily resulted in an overclaim of food
                             service funds.

                         Another issue not detected by the FNS regional office or State agency
                         was the proper use of food service funds. Federal regulations11 require
                         that revenue received by the nonprofit school service be used only for the
                         food service operation. However, our review of SFA’s in three States
                         found that food service funds were not being used to support the SFA’s
                         school food service. Two management companies operating in the States
                         of New Mexico and Washington charged and were paid for unauthorized
                         costs. In addition, a management company in the State of Missouri was
                         allowed to improperly retain food service revenue and receive the
                         associated benefits.

                             In New Mexico, a management company billed two SFA’s for
                             unauthorized variable costs totaling over $40,000. The variable costs
                             were based on a percentage of income (sales) and were charged as a
                             separate line item expense. The SFA’s did not detect the problem
                             because they did not review or request documentation in support of the
                             variable costs charged.



11
     7 CFR 210.14 (a).

USDA/OIG-A/27601-0027-Ch                                                                    Page 18
             Unauthorized costs were charged to one SFA in the State of
             Washington, which reimbursed a management company for non-
             program salaries and benefits. The SFA did not detect the irregularity
             because it did not review program expenditures on a regular basis.
             The management company benefited by receiving over $60,000 in
             NSLP funds that could have been used to operate or improve the food
             service. SFA officials stated that until our review, they were unaware
             there were any problems with management company operations. This
             was a response we encountered nationwide.

             The Missouri State agency allowed an SFA to sign a management
             company contract that allowed all food service income to accrue to the
             management company. Not only was all daily revenue collected by the
             management company and deposited in its bank account, the SFA
             signed over the funds received from the State agency representing the
             reimbursement claim. Over a 3-year period, 1998 through 2000, the
             management company gathered over $750,000 in food service funds.
             Although the management company did provide the SFA with a year-
             end check, the management company and not the SFA received the
             monetary benefit for the entire year. This lack of oversight by the SFA
             was compounded by the fact that SFA personnel did not review the
             billing invoices before they issued any payments.

          Failure by both the FNS Regional offices and State agencies to detect
          specific problems relating to SFA’s and management companies, was
          further evidenced by an improper delegation of duties that both State and
          Federal agencies approved. One FNS regional office and State agency
          allowed an SFA to delegate all the student eligibility determinations to the
          management company. Even though prohibited by Federal regulations,
          the State agency approved the SFA’s RFP with the provision that allowed
          the management company to determine how many students were eligible
          for free or reduced-price meals.

          When we discussed this issue with State agency officials, they stated that
          they were not aware that the SFA’s RFP was approved with the delegation
          of duties. However, we found that the State agency should have been
          aware of the delegation because the FNS regional office also allowed it.
          In a memo, dated August, 1993, to all State directors in the Midwest
          Region, the FNS regional office stated that it was acceptable for the
          management company to perform the student eligibility process and for
          the SFA to make it part of the contract. When we discussed this issue
          with a FNS regional office official, she stated that FNS was in error when it
          approved the delegation of duties. On July 6, 2000, the FNS regional
          office rescinded the 1993 memo thereby canceling the approval. At the
          time for the cancellation, management companies operating in the
          Midwest region had been determining student eligibility for free or

USDA/OIG-A/27601-0027-Ch                                                      Page 19
          reduced-price meals for 7 years. Although immediate action had been
          taken by FNS and State agency officials once they were aware of
          problems with SFA and management company operations, we concluded
          they need a more proactive approach.

          FNS needs to provide additional guidance to FNS regional offices to help
          detect and prevent widespread violations of NSLP regulations. In
          addition, the FNS regional offices should ensure that their State agencies
          are aware of the problems we disclosed and that they have the
          procedures in place to detect these and other program violations.
          Furthermore, FNS should ensure that State agencies make their SFA’s
          aware of the problems in contracting with management companies and
          reaffirm the SFA’s role in ensuring that their food service operation is in
          compliance with Federal requirements.


  RECOMMENDATION NO. 8

          Ensure that the guidance used in performing management evaluations
          emphasizes a review of a State agency’s and SFA’s oversight of
          management company operations.

          Agency Response

          In its response, FNS stated that its current guidance for Coordinated
          Management Evaluations of State Agency Operations places great
          emphasis on the area of oversight of management company operations
          and will continue this emphasis. In addition, FNS requested that the
          recommendation be changed to require FNS continue its level of effort in
          reviewing this area.

          OIG Position

          Because of the changed guidance provided in the response, we can reach
          management decision.


  RECOMMENDATION NO. 9

          Require the FNS regional offices to ensure that their State agencies have
          procedures that ensure all SFA’s who contract with management
          companies for food services continue to maintain reliable meal
          accountability systems that produce accurate monthly claims for
          reimbursement.

USDA/OIG-A/27601-0027-Ch                                                    Page 20
          Agency Response

          In its response, FNS concurred with this recommendation and stated that
          it would issue guidance, within 90 days of report issuance, to its regional
          offices to follow that would ensure that a State agency’s procedures
          ensure that all SFA’s that contract with a FSMC maintain reliable meal
          accountability systems.

          OIG Position

          We accept FNS’ management decision.


 RECOMMENDATION NO. 10

          Require the FNS regional offices to ensure that their State agencies notify
          their SFA’s that the SFA’s are responsible for performing annual on-site
          reviews and evaluating the meal claim information, and that contracting
          with a management company does not alleviate their oversight
          responsibility of food program operations.

          Agency Response

          In its response, FNS concurred with this recommendation and stated that
          it would issue guidance, within 90 days of report issuance, to its regional
          offices for them to follow that would ensure that a State agency notifies its
          SFA’s that they are responsible for performing annual on-site reviews, and
          contracting with a FSMC does not alleviate their oversight responsibility of
          food program operations.

          OIG Position

          We accept FNS’ management decision.




USDA/OIG-A/27601-0027-Ch                                                      Page 21
EXHIBIT A – NATIONWIDE SUMMARY OF SITES SELECTED


                                      NUMBER OF                                                         NUMBER OF
                                                               NUMBER            NUMBER OF
   OIG            STATES             MANAGEMENT                                                            COST-
                                                               OF SFA’s          FIXED-RATE
 REGION          SELECTED             COMPANIES                                                        REIMBURSABLE
                                                              REVIEWED           CONTRACTS
                                      REVIEWED                                                          CONTRACTS

 Northeast        New Jersey                   1                     112                  1                       1

                     South
 Southeast                                     1                     3                    1                       2
                    Carolina

                     Illinois                  1                     8                    8                       -
     Midwest
                    Michigan                   1                     9                    -                       9

     Great
                    Missouri                   1                    37                   36                       1
     Plains

 Southwest        New Mexico                   2                     6                    1                       5


     Western      Washington                   1                     1                    -                       1


              TOTALS                           8                    65                   47                      19




12
  The same SFA and management company signed a fixed-rate contract for school years 1998 and 1999, then signed a cost-
reimbursable contract for school year 2000.

USDA/OIG-A/27601-0027-Ch                                                                                        Page 22
EXHIBIT B – FNS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27601-0027-Ch                        Page 23
USDA/OIG-A/27601-0027-Ch   Page 24
USDA/OIG-A/27601-0027-Ch   Page 25
USDA/OIG-A/27601-0027-Ch   Page 26
USDA/OIG-A/27601-0027-Ch   Page 27
